Supreme Court, U.S.
FILED

JAN - 8 2021
NO.

OFFICE OF THE. CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
Christopher L. Buie,
Petitioner,
\

vs.

l

U.S. Department of Labor, Administrative Review Board

i

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit
PETITION FOR WRIT OF CERTIORARI

Christopher L. Buie
1045 Park Avenue, Apt 6
Omaha, Nebraska 68105
(402) 345-1501
Pro Se
i

JAN t 3 2021

*

Questions Presented
1.

Does the “refuses to operate” clause under the Surface Transportation Assistance
Act (“STAA”) afford protection to employees who refuse to commit unsafe acts
while in their operation of vehicles (as held by the Tenth Circuit), or is the
protection afforded solely to employees who refuse to drive vehicles either
because of the vehicle’s hazardous condition or the driver has a reasonable
apprehension of accident of injury (as held by Eighth Circuit)?

2.

Did Congress intend for state administrative findings that are not reviewed to be
afforded issue preclusion effect in federal proceedings involving discrimination
claims brought under the STAA?

3.

Did the lower courts grossly misapply the substantial evidence standard in this
case?

l

Parties to the Proceedings
In addition to the parties named in the caption, Spee Dee Delivery Service Inc. (Spee
Dee) was the Respondent before the administrative law judge and the Administrative Review
Board but was not an intervenor before the court of appeals for the Eighth Circuit.

!

* i

11

Table of Contents
Questions Presented

1

Parties to the Proceedings

i

11

Table of Contents

iii

Table of Authorities

.v

Petition for Writ of Certiorari

1

The Decisions Below

1

Jurisdiction.

1

Statutory Provisions Involved.

1

Statement of the Case

1

Background

1

The Proceedings Below.............................................................................

2

Reasons for Granting the Petition..............................................................

8

I. The Eighth Circuit Opinion Has Negative Ramifications for
Employees, the Public, and the Judiciary.............................................

8

A. The Panel Opinion Deferred to an Interpretation of the “Refuses to
Operate” Clause That Is Contrary to Congress’s Intent, Not in
Accordance With the Law, and Creates Unreasonable Results........

8

B. The Circuits Are Split Over Whether the “Refuses to Operate”
Clause Protects Employees Who Refuse to Commit Unsafe Acts in
Their Operation of Vehicles..........................................................

9

C. The Panel Opinion Sanctions the Erosion of an Important Legal
Principle and Creates a Split Among the Circuits...........................

11

II. The Panel Opinion Conflicts With the Court’s Decision That Resolved
Whether Issue Preclusion Applies in Federal Proceedings Involving
Discrimination....................................................................................

12

III. No Reasonable Jury Would Have Concluded That Intentional
Discrimination Was Not a Contributing Factor in the Employer’s
Decision.....................................................................................

14

Conclusion

19
• ••

ill

Appendix
Eighth Circuit Order, November 18,2020...............................................

1

Eighth Circuit Court Opinion, October 1, 2020.......................................

2

U.S. Dept, of Labor Administrative Review Board Decision, October 31,
2019.................................................................................................

3

U.S. Dept, of Labor Administrative Law Judge Decision, December 6,
2018.............................................................................................

9
24

49 U.S.C. §31105

IV

Table of Authorities
Cases
Allentown Mack Sales & Serv., Inc. v. NLRB, 522 U.S. 359 (1998)

14

Anderson v. Bessemer City, 470 U.S. 564 (1985)........................

15

Astoria Fed. Sav. & LoanAss’n v. Solimino, 501 U.S. 104 (1991)

13

Bacon v. Hennepin County Medical Center, 550 F.3d 711 (8th Cir. 2008)

13

Ballard v. Giltner Public Public Schools, 492 N.W. 2d 855 (1992)..........

12

Brady v. Office ofSergeant at Arms, 520 F.3d 490 (D.C. Cir. 2008).....

11

Brock v. Roadway Express, Inc., 481 U.S. 252 (1987)..........................

8

Calhoun v. United States Dep’t ofLabor, 576 F.3d 201 (4th Cir. 2009)

9, 10

Erie R. Co. v. Tompkins, 304 U.S. 64 (1938)

13

FTCv. Grolier Inc., 462 U.S. 19(1983)................... ..............................

12

Griffin v. Oceanic Contractors, 458 U.S. 564 (1982)...............................

9

Heartland Plymouth Court MI, LLC v. NLRB, 838 F.3d 16 (D.C. Cir.
2016)..................................................................................................

12

Mack v. South Bay Beer Distributors, Inc., 798 F.2d 1279 (9th Cir. 1986)

13

National Railroad Passenger Corporation v. Morgan, 536 U.S. 101
(2002).........................................................................................

15

Quercia v. United States, 289 U.S. 466 (1933)...............................

14

Reeves v. Sanderson Plumbing Products, Inc., 530 U.S. 133 (2000)

14, 18

Richardson v. Perales, 402 U.S. 389 (1971)..........................................

14

Roadway Exp., Inc. v. Dole, 929 F.2d 1060 (5th Cir. 1991)...................

11

TransAm Trucking, Inc. v. Admin. Review Bd., 833 F.3d 1206 (10th Cir.
2016).................................................................................................

10

U.S. Postal Serv. Bd. of Governors v. Athens, 460 U.S. 711 (1983)........

11, 14

Universal Camera Corp. v. NLRB, 340 U.S. 474 (1951)........................

14

v

Statutes
1

28U.S.C. § 1254(1)

6,9

49 U.S.C. §31105 (a)(1)(B)
49 U.S.C. §31105 (b)(1)

14

49 U.S.C. §31105(a)(1)(A)

.6

49 U.S.C. § 42121(b)(2)(B)

14
2,7

Neb. Rev. Stat. 48-636
Rules
Fed. R. Civ. P. 26(b)(3)

12

Fed. R. Evid. 801(d)(2)(D)

18

Fed. R. Evid. 804(b)(6)

18

Other Authorities
8

128 Cong. Rec. (1982)

VI

Petition for Writ of Certiorari
Petitioner, Christopher L. Buie (Buie), respectfully petitions for a writ of certiorari to
review the opinion of the United States Court of Appeals for the Eighth Circuit.
The Decisions Below
The Eighth Circuit unpublished opinion is located in the Appendix (App.) at 2a. The
ARB decision is at 4a, and the ALJ decision is at 1 la.
Jurisdiction
The Eighth Circuit denied Buie’s petition for en banc review on November 18, 2020. la.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
Statutory Provisions Involved
The pertinent provisions for 49 U.S.C. § 31105 are lengthy and are reproduced at 27a28a.
Statement of the Case
Background
A. This case involves Buie’s claim that his former employer, Spee Dee, suspended and
terminated his employment in violation of the STAA. Spee Dee hired Buie in October 2005 as a
route driver at its branch in Omaha, Nebraska. The job required him to deliver packages and pick
up scheduled and unscheduled parcels. Spee Dee suspended Buie’s employment on March 1,
2013, after he didn’t return to the branch from servicing his route on February 28, 2013, by a
4:30 p.m. deadline. On April 1, 2013, the company fired him allegedly for abusing company
time, after Buie’s supervisor (group leader) arrived back from servicing the route at 4:10 p.m. on
March 1, 2013, and Buie didn’t return by the 4:30 p.m. deadline at any time during the month of
March.

1

B. At Spee Dee’s unemployment insurance appeal hearing (UI Hr’g), the only issue was
whether Buie voluntarily resigned or if Spee Dee fired him for misconduct. Spee Dee’s Branch
Manager, Alex Lehning (Lehning), testified that during his year as Branch Manager, Spee Dee
disciplined other drivers for not making their deadlines, but Buie was the only driver Spee Dee
fired for that reason. Spee Dee submitted a statement written by Lehning dated February 27,
2013, that documented no other dates and referenced a 5:00 p.m. deadline before mentioning
!'

the 4:30 p.m. deadline. Spee Dee also submitted a statement written by its Regional Manager,
Timothy Zuehlke (Zuehlke), who decided to fire Buie, asserting that he reprimanded Buie on

I

February 11, 2010, for not showing “a sense of urgency” in getting back to shop on February 1,
2010, and that Buie’s excuse was weather conditions.
Soon after the UI Hr’g, Buie filed a complaint with the Occupational Safety and Health
Administration (OSHA), alleging that Spee Dee fired him in violation of the STAA. OSHA
dismissed his complaint, and Buie requested a hearing before an administrative law judge (ALJ).
In his request, Buie cited Neb. Rev. Stat. 48-636, which provides that determinations made
under Nebraska Employment Security Law are conclusive for that law.
The Proceedings Below
C. Spee Dee filed a motion for summary decision along with Zuehlke’s affidavit, asserting
that Spee Dee began to suspect that Buie was abusing company time “Soon after” hiring him in
October 2005, and Buie had continuously failed to make a 5:00 p.m. deadline from 2010 through
the entire calendar year of 2012. The ALJ denied Spee Dee’s motion, and he heard this case on
the merits on August 30-31, 2016.
D. At the hearing, Buie offered to play excerpts of the audio recording from the UI Hr’g,
which included Lehning testifying that other drivers had been disciplined but not fired for failing
to meet their deadline. The ALJ told Buie, “If you have a case that involves a jury, you can play

2

a recording to the jury. Here, it’s a bench trial.” Buie told the ALJ that he made attempts through
Spee Dee’s attorneys to subpoena Lehning, who was no longer with the company, but Spee Dee
had not disclosed Lehning’s whereabouts. The attorneys denied that Buie ever requested the
information despite email correspondence showing otherwise.
E. The ALJ specifically made the parties’ prehearing statements a part of the record. Spee
Dee’s attorneys admitted, based on Zuehlke’s affidavit, that from 2010 through the entire year of
2012, Zuehlke expected Buie to return at the station from servicing his route by 5:00 p.m. daily,
and that Management made adjustments to the route at Buie’s urging. R. 24: pp. 5-6, 20. Zuehlke
testified that he and Lehning first issued the 4:30 p.m. deadline to Buie on February 27, 2013. Tr.
234:1-10. Zuehlke admitted to drivers not always leaving the shop by Spee Dee’s 8:00 a.m. goal
to service their routes. He testified that Management could fudge the times for scheduled pick­
ups on driver itineraries and that there could be a “dozen reasons” why a driver would be running
late. Zuehlke admitted that Buie complained periodically during his last several years at Spee
Dee about the time Management allotted him to return from his route.
When questioned about the 5:00 p.m. deadline, Zuehlke denied that it ever existed. Buie
attempted to use Lehning’s written statement from the UI Hr’g to point out inconsistencies in
Spee Dee’s testimony concerning the deadline, but the ALJ prevented him from using the
document for that purpose. Zuehlke was later impeached by his prior affidavit testimony
referencing the 5:00 p.m. deadline several times. The ALJ instructed Buie to mark Zuehlke’s
entire affidavit as an exhibit and submit it into evidence. Tr. 255, 302:12-310:17.
F. Buie’s prehearing statement included Spee Dee’s admission that in 2009, the company
publicly announced its practice of expanding its business and services with little or no scheduling
adjustments. As background evidence, Buie produced Spee Dee itineraries showing

3

that Management scheduled him to perform 5:00 p.m. pick-ups in 2009,2010, 2011, and 2012,
the years that Zuehlke expected him to make the 5:00 p.m. deadline. Buie produced his April
2009 performance review in which Management commented, “Has been defensive and
questioned mgmt. when given job expectations,” after Buie got a speeding ticket in March 2009
and raised safety concerns over the deadline and having pick-ups scheduled for that time.
Zuehlke signed off on the review. Buie also produced a certified weather report and Zuehlke’s
February 11, 2010 statement from the UI Hr’g, showing that Zuehlke reprimanded him for not
making the deadline on a day when there were six inches of snow and ice in Omaha. Buie
testified that Management didn’t remove the 5:00 p.m. pick-ups from his route until November
2012, and they did so because he complained and was adamant about having them removed if
Management wanted him back at 5:00 p.m. daily.
G. Contrary to Lehning’s February 27th statement, asserting that Buie agreed voluntarily to
the 4:30 p.m. deadline, Buie testified that when they issued him the deadline with no exceptions,
other than a mechanical failure, he told Zueklhe and Lehning he couldn’t do it because of the
many factors involved, including his route size, and that he’d have to speed. Buie
produced certified weather reports showing that on the day they issued the deadline, there were

4.0 inches of snow and ice in Omaha, and on February 28th, 3.0 inches remained. Buie also
attested that on the March 1,2013, conference call that he requested, and which Zuehlke
participated in, he told Spee Dee’s Operational Manager, Ronald Watson (Watson), that he’d
already gotten one speeding ticket as a result of Zuehlke’s and Lehning’s scheduling, and he was
not getting another. Watson executed Zuehlke’s and Lehning’s decision to suspend Buie’s
employment at the end of the call. Zuehlke agreed that he required Buie to sign a letter of
suspension on March 4, 2013, that was dated March 1, 2013, before lifting Buie’s suspension.

4

According to Watson, Spee Dee’s policy was to have management test a schedule before
imposing it on a driver to learn whether it conforms to speeding regulations, Tr. 210. Spee Dee’s
Human Resources/Safety Director, Aaron Lynch (Lynch), testified that Management schedules
deadlines based on the number of zip codes a driver has and the time it takes a Manager to
service a route. Tr. 120:11-20. Buie elicited testimony showing that Management did not test the
deadline before issuing it to him. Tr. 117-118:10,185:1-6, 206, 209-210, 301:21-302:10. He also
elicited testimony from Lynch, who had experience as a route driver and a group leader, agreeing
that because Tomcak returned from the route at 4:10 p.m. on March 1, 2013, despite having extra
duties, he should have been able to repeat the arrival time subsequently, despite his extra duties
as a supervisor. Tr. 125-129:11.
Buie demonstrated with Tomcak’s route reports that Tomcak and Lehning arrived back
much earlier than he would have on March 1st because they neglected to service a zip code that
requires “30 to 40 minutes.” Tr. 431-433:17. Buie also showed that Tomcak did not repeat the
March 1st arrival time while Buie was on vacation from March 12-18th because he serviced
every zip code. Id.
H. When Spee Dee’s attorneys asked Buie if the answer he gave at the UI Hr’g was the same

answer he gave in the hearing below concerning Spee Dee’s reason for firing him, Buie testified,
“No, it is not.” Tr. 518:11-521:1. He explained that he’d begun to research and put his case
together before attending the UI Hr’g and that although not an attorney, he was trying to protect
his work product. Id.
Following the hearing below, but before the ALJ issued his decision, Buie informed the
ALJ and the attorneys that he believed the only issue left to decide was the ultimate question of
discrimination or not. Buie also filed a motion to strike Spee Dee’s proposed findings of fact.

5

The attorneys attributed most of Zuehlke’s affidavit testimony, which the ALJ had instructed
Buie to submit into evidence, to other Managers in the proposed findings. Zuehlke’s “soon after”
testimony concerning the start of Spee Dee’s suspicion that Buie was abusing time was attributed
to Lynch, even though Lynch testified that he never discussed performance issues with Buie. Tr.
115:11-116:22. Watson had no firsthand knowledge of Buie’s performance on the route. Tr.
206:10-208:23.
I. The ALJ denied Buie’s motion to strike Spee Dee’s proposed facts. 12a. He returned to
the question of whether Buie established a prima facie case and concluded that because “There
was no evidence that, in over the seven years [Buie] worked for [Spee Dee], he ever refused to
operate his vehicle,” Buie didn’t engage in protected activity under 49 U.S.C. § 31105 (a)(1)(B).
16a-18a. He found that Buie never refused to drive his route, and “Since he did not speed, he was
able to do his job safely. Id. He further concluded that because Buie failed to establish an
objective belief that Spee Dee scheduled his route in a manner that required him to speed, he
didn’t engage in protected activity under 49U.S.C. § 31105(a)(1)(A). 18a-22a. The ALJheldin
the alternative that even if Buie had established a prima facie case by a preponderance of the
evidence, Spee Dee established by clear and convincing evidence that “The suspension and
subsequent termination of [Buie's] employment had absolutely nothing to do with his complaints
that his route required him to speed to complete it on time and he would not speed.” 24a-25a.
In reaching his alternative holding, the ALJ found that “[Buie] testified” Management
removed the 5:00 p.m. pick-ups from his route in February 2012. 13a-14a. He found that because
Buie “still had difficulty returning to the shop by 5:00 p.m.,” Zuelke and Lehning removed
another zip code and six pick-ups from the route on November 7, 2012, and “anticipated that
[Buie] would be back at the shop by 4:30 p.m. without exception.” Id. He found that due to

6

Buie’s failure to be back at the shop by 4:30 p.m. despite the reductions, Zuehlke and Lehning
met with Buie on February 27, 2013, and told him they expected him to complete his route by
4:30 p.m. daily no matter what. Id. He found that because Tomcak had extra duties to perform on
the days he serviced the route in March 2013, he left the shop later than Buie would have, which
diminished the relevance of Tomcak’s arrival times. 14a. The ALJ turned to the unemployment
record and found that Buie speculated that Tomcak completed the route quickly on March 1st
because Lehning accompanied him. Id.
.i

J. Concerning the 5:00 p.m. deadline, the ALJ found “The record is both confusing and
contradictory regarding when [Buie] was expected to complete his route in the years prior to
November 7, 2012,” and that Buie testifying that Zuehlke expected him to be back at the shop by
5:00 p.m. when he had pick-ups scheduled for that time is “Illogical.” 15a. He found Zuehlke
“The more credible witness” based on demeanor. 23a. He turned to the UI Hr’g record and found
that Buie’s credibility further suffered because “Nowhere in [the UI Hr’g] did [Buie] say that his
complaints about having to speed to complete his route on time contributed to his termination in
any way.” Id. He also turned to the UI Hr’g record and concluded that Buie did not take the
opportunity to elicit supporting testimony from Lehning in that hearing. 21a.
K. Buie appealed to ARB, arguing that the ALJ’s interpretation of the STAA provisions was
contrary to Congress’s intent, that Neb. Rev. Stat. 48-636 barred issue preclusion for this case,
the ALJ misstated record evidence, and the record as a whole did not support the ALJ’s factual
and credibility findings. The ARB affirmed the ALJ’s decision. Buie appealed to the Eighth
Circuit, and the panel affirmed the ARB’s decision in toto without any analysis. Buie petitioned
the full court for a rehearing en banc, and the court denied the petition.

7

Reasons for Granting the Petition
I. The Eighth Circuit Opinion Has Negative Ramifications for Employees, the Public, and
the Judiciary
A.

The Panel Opinion Deferred to an Interpretation of the “Refuses to Operate” Clause That
Is Contrary to Congress’s Intent, Not in Accordance With the Law, and Creates
Unreasonable Results
This Court recognized that the STAA “[w]as designed to assist in combating the

‘increasing number of deaths, injuries, and property damage due to commercial motor vehicle
accidents.”’ Brock v. Roadwmy Express, Inc., 481 U.S. 252, 262 (1987)(citation omitted).
Moreover, in enacting the STAA, Congress “[ijntended to assure employees are not forced to
drive unsafe vehicles or commit unsafe acts.” 128 Cong. Rec. 29192 (1982)(remarks of Sen.
Percy)(emphasis added). The Act also “[ajssures that employers are provided protections from
unjustified refusal by their employees to perform legitimate assigned tasks. Id. at 32510.
However, “[t]he responsibilities imposed on truck drivers [must] not impair the driver’s ability to
operate safely.” Id. at 32697.
Buie showed that Spee Dee expected him to arrive back from his route by 5:00 p.m.
daily for several years, even though his responsibilities required him to perform pick-ups
scheduled for that time. One might argue that Zuehlke could not have seriously expected Buie to
make the deadline, but it does not negate that he penalized and reprimanded Buie for refusing
and failing to make it, even when there was inclement weather. In other words, Zuehlke
pressured Buie to speed. Buie refused to speed, but he continued to drive the vehicle to perform
his job. Likewise, Buie continued driving after refusing to make the daily 4:30 p.m. deadline,
knowing that factors such as late starts, inclement weather, servicing the entire route, fudged
scheduling, and performing unscheduled pick-ups, impacted his arrival times and required him to
speed in attempts to make the deadline. The ALJ found that Buie did his job safely because he
8

!

refused to speed, yet he applied the plain language doctrine to the “refuses to operate” clause and
concluded that because Buie never refused to drive the vehicle, he never engaged in protected
activity.
This Court held that “[interpretations of a statute which would produce [unreasonable]
results are to be avoided if alternative interpretations consistent with legislative purpose are
available.” Griffin v. Oceanic Contractors, 458 U.S. 564, 575 (1982). Buie contends that
Congress did not intend for courts to interpret the “refuses to operate” clause as not protecting
employees who refuse to commit unsafe acts while operating vehicles. The ARB’s interpretation
of the clause permits employers to fire employees who refuse speed while driving a vehicle
having a gross weight rating of 10,001 pounds or more, defeating the very purpose of STAA and
putting employees and the public at a higher risk of accident injury. The ARB may argue that
Buie has misread its interpretation, but the ALJ applying the plain language doctrine to the
clause in his decision, which the ARB affirmed, speaks for itself.
Buie contends that courts should depart from the plain language doctrine in situations
such as his because its use limits protected activity to not driving a vehicle, which is contrary to
Congress’s intent and, therefore, does not accord with the law. In affirming the ARB’s decision
in toto, the panel opinion ignores Congress’s intent and nearly deregulates the STAA. This
Court’s intervention is necessary to articulate an interpretation of the clause that accords with the
law and furthers the purpose of the STAA.
B. The Circuits Are Split Over Whether the “Refuses to Operate” Clause Protects
Employees Who Refuse to Commit Unsafe Acts in Their Operation of Vehicles
The ALJ cited Calhoun v. United States Dep’t ofLabor, 576 F.3d 201 (4th Cir. 2009) in
concluding that Buie did not engage in protected activity under 49 U.S.C. § 31105 (a)(1)(B). But
this case is distinguishable from Calhoun. The pertinent regulations in Calhoun required

9

Calhoun not to drive the vehicle unless he was “satisfied that the ... parts and accessories [were]
in good working order” and was “satisfied that the motor vehicle [was] in safe operating
condition.” 49 C.F.R. § 392.7 and 49 C.F.R. § 396.13. The Fourth Circuit held that Calhoun did
not engage in protected activity because he drove the vehicle despite his safety concerns about its
condition. Calhoun, 576 F.3d at 209. In other words, rather than refusing to commit an unsafe
act, Calhoun committed an unsafe act by driving the vehicle.
Under the circumstances of this case, Buie alleged that Spee Dee’s scheduling practices
violated the scheduling regulation, 49 C.F.R. § 392.6, and required him to speed in violation of
49 C.F.R. § 392.2 and 49 C.F.R. § 392.14. Here, the relevant laws didn’t require Buie to not
drive the vehicle because of the vehicles condition; the law required Buie to operate the vehicle
“in accordance with the laws.” Id. Buie considered all the factors involved with making the
deadline and fulfilled his responsibility by refusing to commit the unsafe act of speeding while
operating the vehicle. If Buie had appealed to the Fourth Circuit, that court may have departed
from the plain language because of the different regulations involved.
The true split is among the Tenth and Eighth Circuits. In TransAm Trucking, Inc. v.
Admin. Review Bd., 833 F.3d 1206 (10th Cir. 2016), the ARB argued that Alfonso Maddin
i

(Maddin) engaged in protected activity when he unhooked a trailer that had frozen breaks from
the truck and then drove to seek shelter from frigid weather conditions, after having been
instructed by TransAm to either stay put and wait for repairs or drive with the trailer attached.
TransAm argued that Maddin did not refuse to operate the vehicle because he drove after being
ordered to stay put. However, the Tenth Circuit deferred to the ARB’s interpretation that the
provision could cover situations where employees refuse to “operate” vehicles in the manner
ordered by their employers even when they proceed to drive a vehicle. Id. at 1211-12.

10

Here, the ALJ departed from the ARB’s precedent established in TransAm, as evidenced
by his choosing to cite Calhoun. The ARB adopted the ALJ’s interpretation without providing
any reasonable explanation for its departure from TransAm, and the panel opinion affirmed. This
Court’s intervention is necessary to resolve the Eighth and Tenth Circuits’ split on an important
question.
C. The Panel Opinion Sanctions the Erosion of an Important Legal Principle and Creates a
Split Among the Circuits
This Court held that “Where the defendant has done everything that would be required of
him if the plaintiff had properly made out a prima facie case, whether the plaintiff really did so is
no longer relevant.” U.S. PostalServ. Bd. of Governorsv. Aikens, 460 U.S. 711,715-16(1983).
Spee Dee fully litigated its reason for suspending and terminating Buie’s employment. The ALJ
returned to whether Buie established a prima facie case after hearing this case on the merits
despite Buie petitioning him to apply the Aikens standard. The ARB encouraged the panel to stop
its analysis if it found that Buie did not engage in protected activity.
Because the panel opinion doesn’t provide any analysis independent of the ALJ and ARB
decisions, it sanctioned a departure from the analytical standard this Court articulated in Aikens
and caused a split among the circuits. See Roadway Exp., Inc. v. Dole, 929 F.2d 1060, 1063 (5th
Cir. 1991)( refusing to return to whether claimant established a prima facie case in the STAA
proceeding after the lower court had developed the record and citing Aikens)-, Brady v. Office of
Sergeant at Arms, 520 F.3d 490, 494 (D.C. Cir. 2008)(referring to the act of returning to the
prima facie question as an “unnecessary sideshow” and admonishing lower courts to follow
Aikens).
Moreover, the panel sanctioned conduct that erodes public trust in the integrity of judges
and judicial proceedings. The ALJ and the ARB have no discretion to disregard and act above
11

the High Court’s decisions. Yet, they did so here and caused “enormous confusion” to
discourage Buie from pursuing his claim any further. Id. The D.C. Circuit, for example, would
have viewed their action as “an instrument of oppression.” Heartland Plymouth Court MI, LLC
v. NLRB, 838 F.3d 16, 18 (D.C. Cir. 2016). The Athens standard is a valuable legal principle that
benefits litigants and the judiciary, as it curtails the wasting of time and resources. The Court
should grant the petition to reiterate its decision, resolve the split among the circuits, and prevent
any further erosion of that principle.
II. The Panel Opinion Conflicts With the Court’s Decision That Resolved Whether Issue
Preclusion Applies in Federal Proceedings Involving Discrimination
Buie informed the ALJ that determinations in Nebraska’s unemployment hearings are
conclusive only for Employment Security Law purposes. Ballard v. Giltner Public Public
Schools, 492 N.W. 2d 855, 858 (1992). Buie also testified that he was trying to protect his work
product at the UI Hr’g, which is indicative of the decision to pursue his claim using the statutory
process under the STAA. In dicta, the Court has recognized that “the literal language of [Fed. R.
Civ. P. 26(b)(3)] protects materials prepared for any litigation or trial as long as they were
prepared by or for a party to the subsequent litigation.” FTC v. Grolier Inc., 462 U.S. 19, 25
(1983). Buie contends that as a self-represented party at the UI Hr’g, his mental impressions,
conclusions, opinions, and legal theories were protected. Id.
However, the ALJ ignored Nebraska law and, without so stating, applied preclusion
principles to Buie’s claim. He found that “Nowhere in [the UI Hr’g] did [Buie] say that his
complaints about having to speed to complete his route on time contributed to his termination in
any way,” and then couched it as a credibility determination. And as argued infra, the ALJ
excluded from his consideration any evidence adduced at the hearing below that Buie didn’t
produce at the UI Hr’g to show that Spee Dee’s proffered reason was a pretext.

12

The panel was bound by this Court’s decision in Erie R. Co. v. Tompkins, 304 U.S. 64,
78 (1938)(holding that federal courts must follow the state’s law in which the claim arose). But
apparently, the panel applied the reasoning in Bacon v. Hennepin County Medical Center, 550
F.3d 711,716 (8th Cir. 2008)( agreeing with the district court that the employee had “a large
financial interest” to argue vigorously at an unemployment hearing). However, the Ninth Circuit
has held that an employee’s incentive to litigate unemployment benefits is much less than the
incentive to litigate his/her discrimination claim “where the stakes are much higher.” Mack v.
South Bay Beer Distributors, Inc., 798 F.2d 1279, 1284 (9th Cir. 1986). Buie had little incentive
to litigate his claim and waste his proof at the UI Hr’g, where the only issue was whether he
resigned or whether Spee Dee fired him for misconduct. And even if Nebraska had no statute
barring preclusion, the principles still should not have applied.
Like claimants under Title VII and the Age Discrimination in Employment Act of 1967
(ADEA), claimants under the STAA must exhaust their administrative remedies before filing suit
in federal court where they are entitled to a trial de novo. 27a; Astoria Fed. Sav. & Loan Ass ’n v.
Solimino, 501 U.S. 104, 110-11(1991). Affording collateral estoppel effect to claimants under
the STAA conflicts with Congressional intent. Id. at 108 (“Courts do not, of course, have free

rein to impose rules of preclusion, as a matter of policy, when the interpretation of a statute is at
hand[,] ... [and] the question is not whether administrative estoppel is wise but whether it is
intended by the legislature”).
Whether issue preclusion applies to claimants under the STAA is an important question
because if left unresolved, the proceedings are at risk of becoming “strictly pro forma” as
articulated by this Court. Id. Moreover, as whistleblowers play an essential role in this nation’s
health, welfare, and security and make great sacrifices in doing so, courts should not punish them

13

for exercising their right to use the statutory process to bring their claims and vindicate their
names, as was done here.
III.

No Reasonable Jury Would Have Concluded That Intentional Discrimination Was
Not a Contributing Factor in the Employer’s Decision
This Court held that factual findings and credibility determinations are reviewed for

substantial evidence, i.e., “[w]hether on this record it would have been possible for a reasonable
jury to reach the [ARB's] conclusion.” Allentown Mack Sales & Serv., Inc. v. NLRB, 522 U.S.
359, 366-67(1998); Richardson v. Perales, 402 U.S. 389, 401 (1971)(holding that substantial
evidence is “such relevant evidence as a reasonable mind might accept as adequate to support a
conclusion”)(citation omitted). In determining the substantiality of the evidence, courts must
“take into account whatever in the record fairly detracts from its weight.” Universal Camera
Corp. v. NLRB, 340 U.S. 474, 488 (1951). Moreover, a judge “[m]ay analyze and dissect the
evidence, but he may not either distort it or add to it.” Quercia v. United States, 289 U.S. 466,
470 (1933).
Spee Dee litigated that it suspended Buie’s employment on March 1, 2013, and fired
him on April 1, 2013, for his abusing company time. According to Zuehlke, the company began
to suspect the abuse “Soon after” hiring Buie in October 2005. Buie had the burden of showing
by a preponderance of the evidence that Spee Dee’s reason was a pretext and that intentional
discrimination was “a contributing factor” in the adverse employment decisions. 49 U.S.C. §
31105 (b)(1) and 49 U.S.C. § 42121(b)(2)(B). The law permitted Buie to prove intentional
discrimination by showing that Spee Dee’s reason was false and proffered to cover-up unlawful
discrimination. Reeves v. Sanderson Plumbing Products, Inc., 530 U.S. 133, 147-48 (2000). The
law also permitted the use of circumstantial and relevant background evidence to make that
showing. See Aikens, 460 U.S. at 718 n.3 (“the plaintiff may prove his case by direct or

14

circumstantial evidence”); National Railroad Passenger Corporation v. Morgan, 536 U.S. 101,
113 (2002)(holding prior acts may be used to support a timely claim of discrimination). And
although Spee Dee’s reason is implausible on its face, as no reasonable jury would believe that
Zuehlke tolerated Buie stealing company time for approximately seven years and five months
before deciding to suspend his employment and fire him, Buie produced sufficient evidence
showing that intentional discrimination was a contributing factor in Zuehlke's decisions.
However, the ALJ found otherwise by distorting and adding to the evidence.
For several years, Zuehlke ordered Buie to return at the station from servicing his route
by 5:00 p.m. daily, even though Buie had 5:00 p.m. pick-ups to perform. Buie showed that
Management, including Zuehlke, would penalize and reprimand him for questioning the deadline
and refusing to speed. The ALJ found Buie’s testimony concerning the deadline and pick-ups to
be “Illogical” despite Spee Dee admitting to the deadline in its prehearing statement, Spee Dee’s
itineraries showing 5:00 p.m. pick-ups on the route from February 2009 thru August 2012, and
Zuehlke testifying that Management could fudge scheduling, which accounts for the itinerary
dated August 28, 2009, listing the last pick-up at 4:20. He found Zuehlke to be “the more
credible witness” on this score, even though Buie impeached Zuehlke on denynig the deadline’s
existence. The Court held in Anderson v. Bessemer City, 470 U.S. 564, 575 (1985) that:
“A trial judge may [not] insulate his findings from review by
denominating them credibility determinations, for factors other
than demeanor and inflection go into the decision whether or not to
believe a witness. Documents or objective evidence may contradict
the witness’ story; or the story itself may be so internally
inconsistent or implausible on its face that a reasonable factfinder
would not credit it. Where such factors are present, the court of
appeals may well find clear error even in a finding purportedly
based on a credibility determination.”
Here, the ALJ insulated his findings from scrutiny by denominating them credibility
determinations. But the only permissible view of the background evidence is that Zuehlke’s 5:00

15

p.m. deadline, coupled with the 5:00 p.m. pick-ups, pressured Buie to exceed speed limits. And
despite the itineraries showing 5:00 p.m. pick-ups in August 2012, and Buie testifying they
remained on the route until November 2012, the ALJ distorted the record evidence and found
“[Buie] testified” that management eliminated the pick-ups in February 2012, making it appear
that despite an adjustment, Buie still failed to meet the expectation.
No reasonable jury would accept Buie’s failure to make the unreasonable deadline from
March 2009 thru November 2012 as adequate to support the conclusion that Buie stole company
time or that Zuehlke believed he stole time. But a reasonable jury would accept as sufficient to
support a finding that Zuehlke harbored animus towards Buie’s protected activity, Zuehlke lying
under oath to cover up the deadline, and Zuehlke penalizing Buie for questioning Management’s
expectations and exercising caution while driving in dangerous weather conditions. Morgan, 536
U.S. at 112.
Concerning the 4:30 p.m. deadline, with no exceptions other than a mechanical
failure, Zuehlke admitted that he and Lehning first issued it to Buie on February 27, 2013. Buie
elicited testimony showing that Zuehlke and Lehning did not follow the company policy of
testing the deadline to ensure that he could achieve without having to speed. Buie also showed
there were four inches of snow and ice in Omaha on February 27th and three inches on February
28th. However, the ALJ found that Zuehlke and Lehning anticipated that Buie would be returning
at the station at 4:30 p.m. without exception in November 2012, despite Zuehlke’s admission. He
further distorted the evidence in finding that Buie’s failure to return at the station by 4:30 p.m.
from November 2012 thru February 2013 resulted in Zuehlke and Lehning reiterating the
deadline on February 27th.

16

The ALJ made it appear that Buie failed to meet a deadline that didn’t even exist for
several months. To support his findings, he used Lehning’s written statement, even though the
document had no dates other than February 27, 2013, and Buie introduced it to point out the
inconsistencies in Spee Dee’s live testimony, not for the truth of the matter asserted.
No reasonable jury would accept Buie’s failure to meet a non-existent deadline as
adequate to support the conclusion that he stole company time from November 2012 thru
February 26, 2013. Nor would a jury accept that he stole time on February 27-28th by failing to
make the deadline driving ice-covered roads. But a jury would accept the background evidence
showing Zuehlke’s blatant disregard for motor vehicle safety in reprimanding Buie in February
2010 for not driving with a “sense of urgency” in six inches of snow and ice, as adequate to
support a finding that Zuehlke’s animus towards Buie for adhering to the rules was a
contributing factor in his decision to suspend Buie’s employment on March 1, 2013.
Finally, Buie showed that the company establishes a deadline on the number of zip codes
a driver has and when a manager returns from servicing the entire route. Spee Dee agreed that
since Tomcak returned earlier than Buie would have on March 1st despite having extra duties,
Tomcak should have repeated his March 1st arrival time despite the additional responsibilities.

Buie showed with Spee Dee documents that Tomcak and Lehning returned earlier than he would
have on March 1st because they neglected to service a zip code and that Tomcak did not repeat
the March 1st arrival time March 12-18 because he serviced every zip code. Buie also submitted
evidence showing that other drivers were disciplined but not fired for not making deadlines. No
one can dispute that Spee Dee’s managers corroborated Buie’s testimony and evidence.
Nonetheless, the ALJ was deliberately obtuse to the significance of that evidence.

17

The ALJ refused to consider any evidence Buie adduced in the hearing below that rebuts
Spee Dee’s defense. Instead, he turned to the UI Hr’g record to find that Buie speculated that the
reason Tomcak was able to arrive back so early on March 1st was that Lehning accompanied
him. The ALJ ignored Lynch’s testimony, who had experience as a route driver and a group
leader, agreeing that Tomcak should have been able to repeat his March 1st arrival time despite
his extra responsibilities. The ALJ engaged in spin and found that additional duties caused
Tomcak to leave the shop later than Buie would have on March 12-18, which diminished the
relevance of Tomcak’s arrival times for those days but he found Tomcak’s March 1st arrival
time to be relevant in Spee Dee’s defense. He refused to consider Lehning testifying at the UI
Hr’g that Spee Dee didn’t fire the other drivers for failing to make their deadlines, even though
Lehning acted within the scope of his employment when he testified, see Fed. R. Evid. 801(d)(2)
(D), and Buie showed that Lehning was unavailable as a witness. Fed. R. Evid. 804(b)(6).
No reasonable jury would accept Buie returning at the station by times comparable to
Tomcak’s, when Tomcak serviced every zip code, as adequate to support the conclusion that
Buie stole company time in March 2013. But a jury would accept as adequate to support a
finding that Zuehlke did not believe or even mistakenly believe that Buie stole time in March
2013, Zuehlke’s knowledge of Buie not always being able to leave the shop by 8:00 a.m. daily,
the fudged times on driver itineraries, Buie having to perform unscheduled pick-ups, and a
“dozen reasons” that Buie could be running late. A jury would also find that Zuehlke treated
Buie differently than other drivers who didn’t make their deadline and that his reason for firing
Buie was a pretext for intentional discrimination. Reeves, 530 U.S. 133 at 147.

18

Conclusion
!

Because the questions presented are important, as they involve a live-saving statute that

i

!
!:

affects public safety, and because the ALJ and the ARB did not follow the High Court’s law,
the Court should grant the writ and vacate the panel opinion.

I

Dated: January 8,2021

Respi

ill

itted by:
t

Christopher Buie
1045 Park Ave Apt 6
Omaha, Ne 68105
402-345-1501
Jidao70@Jiotmail.com

19

